Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       State Health Insurance
        Assistance Program

        Assistance to Beneficiaries




                      JANET REHNQUIST
                       Inspector General

                        FEBRUARY 2002
                        OEI-07-00-00580
                            OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory mission is
carried out through a nationwide program of audits, investigations, inspections, sanctions, and fraud
alerts. The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                             Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Kansas City office prepared this report under the direction of Brian T. Pattison, Regional
Inspector General. Principal OEI staff included:

Region                                                             Headquarters

Zula Crutchfield, Project Leader                          Linda Frisch, Program Specialist

Marco Villagrana, Program Analyst                         Scott Horning, Program Analyst

Elander Phillips, Program Inspections Assistant           Barbara Tedesco, Mathematical Statistician

Perry A. Seaton, Team Leader


       To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
               Reports are also available on the World Wide Web at our home page address:

                                             http://oig.hhs.gov/
                              EXECUTIVE SUMMARY

PURPOSE

           To assess the State Health Insurance Assistance Program (SHIP) performance in providing
           information, counseling, and assistance to Medicare beneficiaries by examining those impacted
           by non-renewal of managed care organizations (MCOs).

BACKGROUND

           The Secretary of the Department of Health and Human Services has stressed the need to

           improve and expand educational services to Medicare beneficiaries. The Centers for Medicare

           & Medicaid Services (CMS) is undertaking broad-based initiatives to address this educational

           need. The SHIPs are one part of this program. They provide information, counseling, and

           referral services to Medicare beneficiaries at the local level. The SHIP counselors, most of

           whom are volunteers, carry out this assistance through in-person or telephone counseling,

           developing and distributing written materials, and conducting group seminars and presentations.


           Over the past 4 years, many MCOs have either withdrawn from the Medicare program or

           reduced their service area, thereby affecting over 2.2 million beneficiaries. We evaluated how

           well SHIPs served beneficiaries affected by these MCO non-renewals. We conducted a mail

           survey with a national stratified random sample of Medicare beneficiaries who received notice

           of their MCO non-renewal in Calendar Year 

           (CY) 2000 because these beneficiaries were more likely to seek information and counseling

           services about their Medicare coverage in response to the non-renewal of their HMO. Further,

           we gathered information from SHIP directors and counselors from seven sample States,

           selected based upon geographic and regional differences. Such information included personal

           interviews, operational policies, program funding, training, and workload information.


FINDINGS

Beneficiaries in the Sample States Sought Assistance in Greater Numbers During
Periods of MCO Non-renewals

           Generally, call volume data from the sampled SHIPs showed increased telephone calls during
           the fall of CY 2000 after beneficiaries received notices of the MCO non-renewal. Directors
           from all sampled States and most counselors noted increased workloads, leading to delays in
           assisting beneficiaries. The SHIP directors and counselors describe beneficiaries seeking their
           assistance as angry, confused, and overwhelmed when initially contacting SHIP about the non-
           renewal of their managed care plan.




SHIP: Assistance to Beneficiaries                      i                              OEI-07-00-00580
The SHIPs Target Their Program to Meet the Needs of the Local Community

           The SHIPs use a variety of initiatives to meet the unique needs of their clients, as clients often
           lack knowledge of local, State, and Federal programs. They provide face-to-face counseling
           and referrals to Medicaid, the Social Security Administration (for Supplemental Security
           Income), and programs for utility assistance, housing assistance, nutrition, property tax
           abatement, and other local services for aged or disabled clients. SHIPs also use innovative
           tools to reach all eligible individuals including those with cultural differences, language barriers,
           and special needs such as the elderly and disabled. Beneficiaries who used SHIP services
           were satisfied and rated the quality of the services as average or above. Most users stated they
           were able to obtain the information needed to make their health care decisions.

The SHIP Counselors Believe They Are Prepared to Respond to Most Concerns,
Yet Expressed Frustration with the Timeliness of MCO Non-renewal Information

           Seventy-six percent of the SHIP counselors believe the training they received prepared them to
           respond to most concerns and questions beneficiaries may have about their health care
           coverage. However, while 83 percent of SHIP counselors received specific information on
           managed care non-renewals, only 67 percent believe the information was provided when it was
           needed.

Beneficiaries Are Interested in SHIP Services, Yet Most Were Unaware of the
Program

           Only 13 percent of the beneficiaries surveyed knew of SHIP and only 37.5 percent of these

           had used its services. To improve beneficiary knowledge, CMS has mailed publications

           designed to inform beneficiaries about available health care services, including SHIPs. These

           publications include a listing of contacts for SHIP and other agencies that can provide

           assistance and counseling as well as the national

           1-800-Medicare toll-free number. Survey respondents reported that while these information

           sources are consulted and are useful, they remained unaware of the SHIPs.


RECOMMENDATIONS

           The CMS has implemented a broad-based initiative, the National Medicare Education
           Program, to educate beneficiaries about the Medicare program. The program’s educational
           sources include the toll-free number, publications, the Internet, forums, advertising, and SHIPs,
           just to name a few. The SHIPs fulfill an important role by economically providing personal
           Medicare counseling services through volunteers, many of whom are also Medicare
           beneficiaries. The CMS educational initiatives complement each other and each serves a role in
           helping to assure beneficiaries can obtain needed information and referrals in the manner that
           best suits their needs.

           The CMS’s own data indicate a significant number of beneficiaries seek individual counseling
           including the localized services SHIPs provide. Historically, such


SHIP: Assistance to Beneficiaries                       ii                                OEI-07-00-00580
           individualized services were provided by Social Security field offices, but this is mostly no
           longer true.

           We, therefore, offer the following recommendations to improve comprehensive beneficiary
           information and assistance services, including those provided by SHIPs.

                   <	 Review the Appropriate Role(s) for Each Information and Referral
                      Source to Assure Beneficiaries’ Needs Are Being Met

                   <	 Explore Ways to Appropriately Increase Knowledge of SHIPs, Their
                      Function, and Their Local Telephone Number in CMS Publications
                      or Through Other Methods

                   <	 Coordinate Closely with SHIPs To Ensure Timely Dissemination of
                      MCO Non-renewal Information

AGENCY COMMENTS

           In its written response to the report, CMS addressed the three report recommendations as a
           single recommendation. In essence, CMS agreed with the last recommendation but not the first
           two. The CMS believes that exploring the appropriate role for all information and referral
           sources goes beyond the scope of the study. The CMS also expressed concern with our
           recommendation to modify their publications and notices, citing the possibility of inappropriate
           beneficiary contacts to SHIPs.

           The overall effectiveness of SHIPs, in the context of all available information sources, was
           within the scope of our study. We used Medicare beneficiaries experiences with HMO non-
           renewals not to limit the scope of our study, but rather to provide a means to understand how
           the SHIPs work, how beneficiaries make use of all the information sources available to them,
           and how SHIPs assist beneficiaries with making choices regarding their Medicare coverage.
           We clarified this in our methodology section.

           We found that the SHIPs are uniquely positioned to provide local information and referral
           services to diverse groups of Medicare beneficiary, irrespective of the beneficiaries’ information
           needs. Given that CMS is implementing a broad-based initiative to educate beneficiaries about
           the Medicare program and given that beneficiaries are seeking information sources when faced
           with non-renewal of MCOs, we believe it is an appropriate time to review the role of the
           various information and referral sources.

           In addition, we continue to recommend modification to notices and publications to prominently
           display SHIP as well as other CMS beneficiary information, since 87 percent of the
           beneficiaries we contacted were not aware of the SHIP program.

           We have made revisions to the report based on CMS’s comments. The full text of CMS’s
           comments is contained in Appendix D.


SHIP: Assistance to Beneficiaries                       iii                              OEI-07-00-00580
                              TABLE OF CONTENTS

                                                                                                                                    PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Beneficiaries Sought Assistance in Greater Numbers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          SHIPs Meet Local Community Needs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          SHIP Counselors Prepared to Answer Most Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Beneficiaries Want Ship Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


          A: Beneficiary Counseling and Assistance Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          B: Estimates and Confidence Intervals - Beneficiary Sample . . . . . . . . . . . . . . . . . . . . . . . . 20


          C: National Performance Review - SHIP Counseling and Presentation

             Contacts Calendar Year 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


          D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                                    INTRODUCTION

PURPOSE

          To assess the State Health Insurance Assistance Program (SHIP) performance in providing
          information, counseling, and assistance to Medicare beneficiaries by examining those impacted
          by non-renewal of managed care organizations (MCOs).

BACKGROUND

Beneficiary Confusion About Health Insurance Plans

          Previous studies have found Medicare beneficiaries face complex choices when making
          decisions about their health insurance plans. This is due in part to the variety of plans available,
          differences between the plans’ coverages and costs, and limited time frames for making
          important medical and financial choices. For example, an AARP study assessing older
          consumers’ skills in making health care choices found many had difficulty in comparing costs
          and benefits of one plan to others.1

          Representatives of beneficiary advocacy groups and the insurance industry stated that
          beneficiaries often are confused and misinformed about various Medicare Supplemental
          Insurance (Medigap) policies, open enrollment periods, and the protections afforded them.
          Often, beneficiaries seek guidance from others to assist them in making informed choices about
          health care options and costs.2

Educational Efforts

          Historically, the Centers for Medicare & Medicaid Services (CMS) relied heavily upon the
          Social Security Administration’s (SSA) over 1,300 field offices to provide individualized
          assistance, counseling, and educational services to beneficiaries in local communities.
          However, since SSA was elevated to an independent agency in April 1995,3 it has eliminated
          these services for Medicare beneficiaries and now provides only limited support. Primarily, this
          involves initial Medicare enrollment and the replacement of Medicare cards.

          The Secretary of Health and Human Services, in conjunction with CMS, announced plans to
          improve and expand its outreach efforts in order to educate beneficiaries about Medicare and
          the services available to them. These educational efforts will focus on providing information on
          health care delivery systems and choices available to beneficiaries. This inspection examined
          the performance of SHIP, one such program already in place to provide a broad range of
          national and local information and assistance services to Medicare beneficiaries.




SHIP: Assistance to Beneficiaries                      1                                 OEI-07-00-00580
The State Health Insurance and Assistance Program

          Congress enacted the Information, Counseling, and Assistance (ICA) program (later renamed
          the State Health Insurance Assistance Program) as part of Omnibus Budget Reconciliation Act
          (OBRA) of 1990, to help alleviate beneficiary confusion in making health plan choices. As part
          of this law, Congress authorized State grants to implement the ICA program. These grants,
          which are administered by CMS, require State grantees to establish or improve upon existing
          health insurance information, counseling, and assistance programs. In addition, grantees are
          required to establish a system of beneficiary referrals to appropriate Federal and State agencies
          for problems related to health insurance coverage (Appendix A).

          The SHIPs exist in 50 States, the District of Columbia, Puerto Rico, and the Virgin Islands.
          Two-thirds of the grantees are located in the State Departments of Aging, while the remainder
          are located in the State Departments of Insurance. State Departments of Insurance are
          responsible for the regulation of insurance companies, including review of insurance policies
          sold and premium costs. In contrast, the State Departments of Aging are primarily concerned
          with improving the quality of life for the elderly.

The SHIP Purpose and Functions

          The SHIPs are locally operated programs offering assistance to individuals with questions about
          various health insurance plans and programs, including Medicare. It functions as a vital
          communication link with beneficiaries and serves to provide in-depth counseling and assistance.
          States carry out these objectives through in-person or telephone counseling, developing and
          distributing written materials, and holding group educational seminars and presentations.

          The SHIP counselors are one of the primary points of contact for beneficiaries and are
          comprised of a large number of volunteers and a small number of salaried employees. Overall,
          28 percent of the SHIP counselors report having previous professional experience in elderly
          advocacy, insurance, social work, or the medical field.

          In addition to the local SHIPs, beneficiaries have national and State sources for obtaining
          information and assistance in the selection of Medicare health coverage. Currently, such
          services are provided mainly through the CMS toll-free number, the CMS website
          (www.medicare.gov), MCOs, and the applicable State Departments of Aging or Insurance.
          However, these services may not address the local information and referral services sought by
          some beneficiaries.

The SHIP Funding

          The SHIP base grants averaged about $15 million each year apportioned according to the
          population of beneficiaries residing in a given State.4 Grant funds are designated to support
          information, counseling, and assistance activities relating to Medicare and Medicaid matters,
          Medigap policies, long term care insurance, managed care options, and other health insurance
          information.




SHIP: Assistance to Beneficiaries                     2                               OEI-07-00-00580
Non-Renewal of Managed Care Organizations from the Medicare Program

          Over the last 4 years, many MCOs have either withdrawn from the Medicare program or
          reduced their service area, resulting in a large number of beneficiaries changing health plans.
          According to data from CMS, as shown in Table 1, there has been a large number of plans
          leaving the Medicare program in 1999, 2000, and 2001, affecting approximately 2.2 million
          beneficiaries.5
                                                        Table 1

                                              MCO Non-renewals 1999 - 2002
                                    MCO Plans in                          MCO Plans
                                     Medicare          MCO Plans          that reduced         Beneficiaries
                    Year             program          that withdrew       service area           affected

                   1999                 346                 45                54                 407,000

                   2000                 309                 41                58                 327,000

                   2001                 261                 65                53                 934,000

                   2002                1796                 22                36                 536,000

Insurance Options for Medicare Beneficiaries

          When MCOs withdraw from Medicare or reduce their service areas, beneficiaries must choose

          between Medicare fee-for-service (FFS) or another MCO plan. Some beneficiaries face

          limited choices. In Calendar Year (CY) 2000, over 158,000 beneficiaries affected by the non-

          renewal of an MCO plan could only enroll in Medicare FFS because other MCOs were either

          not operating or not accepting new clients in their State.


          Beneficiaries switching to FFS may face increased out of pocket expenses for costs often

          included in the MCOs’ benefit packages (e.g., annual deductibles and costs for non-covered

          items such as prescription drugs). Many beneficiaries chose to purchase a Medigap policy to

          cover these costs. These policies, sold by private insurance companies, are regulated by the

          States’ insurance commissions. The OBRA of

          1990 established uniform Federal criteria that governs how States regulate the sale of Medigap

          policies. The law limits available Medigap polices to 10 standard benefit packages. Further, it

          mandates that all plans offer a standard set of benefits and requires that premiums be based on

          specific loss ratio standards.7


MCO Non-renewal Notices to Beneficiaries

          When an MCO withdraws or reduces its service area, CMS requires the MCO to notify the
          affected beneficiaries. These notices prominently referred beneficiaries to their local SHIP (toll-
          free telephone numbers included), and the CMS national toll-free number if they needed
          additional information and/or counseling services.


SHIP: Assistance to Beneficiaries                       3                                OEI-07-00-00580
          The CMS can institute annual revisions to the time frames and notices MCOs use to advise the
          public and beneficiaries of their intentions to withdraw from the Medicare program or reduce
          their service areas.

          In CY 2000, CMS required the MCOs to send two notices to the affected beneficiaries:

                      1.	       An interim notification letter was sent in July, to inform Medicare beneficiaries
                                of the MCO’s non-renewal effective the following January 1. This letter
                                advised beneficiaries not to take any action until they received a final
                                notification letter.

                      2.	       A final notification letter of MCO non-renewal was required to be dated and
                                sent by October 2.8 This letter officially notified beneficiaries of the MCO non-
                                renewal effective January 1. The letter further advised beneficiaries of their
                                rights and time frames for selecting alternative Medicare and other health care
                                coverage.

Time Frames to Select Alternative Medicare and Medigap Coverage

          Beneficiaries affected by MCO non-renewals face specific time frames to implement changes to
          their health care coverage. Changes made outside of this period may result in denial of
          coverage for pre-existing conditions and imposition of increased premiums.

                     <	     Beneficiaries may enroll in another MCO serving their area within the Special
                            Election Period beginning on October 1 and ending on December 31. They can
                            also purchase a Medicare supplement insurance (Medigap) policy before or after
                            the termination of their current MCO coverage
                     <	     (October 2 - March 4) with “guaranteed issue rights.” These rights ensure that the
                            Medigap insurer cannot deny a policy, impose waiting periods for coverage, or
                            limit coverage for pre-existing medical conditions. If beneficiaries delay purchase
                            of a Medigap policy beyond March 4, they lose the “guaranteed issue rights”
                            protections, and the Medigap insurer can impose pre-existing coverage
                            restrictions.

                     <	     Beneficiaries may elect to enroll in FFS (“Original Medicare”) as soon as they
                            receive the final notice from their MCO. If they choose to enroll in FFS, their
                            MCO coverage will terminate on the last day of the month of disenrollment, and
                            their Medicare FFS is effective on the 1st day of the following month. Beneficiaries
                            who make no election will automatically be enrolled in FFS effective January 1.
                            As part of this process, beneficiaries are informed of their option to purchase a
                            Medigap policy to supplement Medicare FFS coverage. They are afforded
                            “guaranteed issue rights” for the purchase of Medigap policies beginning with the
                            Final Notice of plan termination and ending 63 days after the effective
                            disenrollment date.



SHIP: Assistance to Beneficiaries                           4                                OEI-07-00-00580
METHODOLOGY

          Our study purpose was to assess the overall effectiveness of SHIPs. During our
          pre-inspection, CMS officials informed us that the average Medicare beneficiary typically does
          not contact a SHIP because he or she has already made decisions about his or her Medicare
          coverage. Therefore, we identified periods of significant HMO non-renewal -- a time when all
          affected beneficiaries must change their Medicare coverage -- as a means of selecting a sample
          of Medicare beneficiaries likely to have sought assistance with making choices about their
          Medicare coverage. We believed it worth examining beneficiaries’ use of available information
          sources, including SHIPs, 1-800-Medicare, CMS publications, and the Internet, as well as
          SHIPs response to increased workloads brought on by HMO non-renewals.

          We sampled beneficiaries who received notices during CY 2000 that their MCO plan was
          leaving Medicare or reducing its service area effective January 1, 2001. We believed this focus
          would most likely provide beneficiaries who had recent experience with their local SHIP, and
          consequently, would be able to comment on their level of satisfaction with the services
          received. Further, we believed this sampling method would allow us to examine the impact of
          MCO non-renewals on individual SHIPs’ performance. We recognize that beneficiaries or
          care givers may have little reason to contact anyone with questions about their health care
          choices once they have completed their Medicare enrollment process. However, beneficiaries
          facing dramatic changes in their health care plan may be sufficiently motivated to contact
          informed sources, such as SHIP, to explore their health insurance options.

State Sampling Procedures

          We selected a purposive sample of seven States composed of two groups. We considered
          both the number of beneficiaries impacted by MCO non-renewals as well as geographic and
          regional differences in selecting the two sample groups.

                      Group 1       States with the largest number of beneficiaries impacted by MCO non-
                                    renewals (Florida, New York, Ohio, Pennsylvania, and Texas).

          .           Group 2       States in predominately rural areas with a significant number of
                                    beneficiaries affected by MCO non-renewals (Arizona and Oregon).

          These States comprise 55 percent of the total beneficiaries impacted by MCO

          non-renewals and 63 percent of the beneficiaries who could only enroll in Medicare FFS. 

          Since our sample of SHIPs were purposively selected, our findings based on information from

          sampled states apply only to the 7 States selected and cannot be generalized to all SHIP

          Programs.





SHIP: Assistance to Beneficiaries                     5                              OEI-07-00-00580
          We interviewed seven SHIP program directors and held individual and group discussions with
          78 salaried and volunteer counselors in two counties within each of the sample States. We
          selected the counties based on factors such as the total population affected, beneficiaries who
          could only enroll in Medicare FFS, and a mix of predominately urban and rural populations.
          The sample counties comprise 22 percent of the total beneficiaries impacted by MCO non-
          renewals and 19 percent of the beneficiaries who could only enroll in Medicare FFS. We
          assessed the SHIPs ability to provide effective services to Medicare beneficiaries impacted by
          MCO non-renewals. As part of this process, we requested monthly SHIP workload data for
          the two sample counties in each of the seven States.

Beneficiary Sampling Procedures

          We conducted a mail survey with a national stratified random sample of 800 Medicare
          beneficiaries who received notice of their MCO non-renewal in CY 2000, and we received
          responses from 365 (46 percent). To select our sample, we used CMS’s list of MCOs that
          withdrew from Medicare or reduced their service area effective January 1, 2001. We then
          used CMS’s Group Health Plan master file to identify beneficiaries who disenrolled from that
          list of MCOs during the period July 1 through December 31, 2000. Finally, we used CMS’s
          Enrollment Data Base to exclude those beneficiaries who had died since the non-renewal of
          their MCO. We stratified the sample into five strata by State to assure that we obtained
          representative national responses, responses from beneficiaries residing in the sample States
          (including predominately rural States), and responses from beneficiaries residing in States that
          lacked another managed care plan. The sample design is shown in Table 2.
                                                        Table 2

                                                Beneficiary Sample Design

                                                                               Universe
                                                                  Sample       (Affected         Universe
            Strata        Sample States                            Size        Enrollees)        Percent

            1             FL, NY, OH, PA, TX                       300          488,063            52.3%

            2             AZ                                       100           24,327             2.6%

            3             OR                                       100            5,767             .6%

                          AL, ME, NH, VA (most or all
                          beneficiaries have no other MCO
            4
            available)                               100           19,278             2.1%
            5             All other affected States                200          396,252            42.4%

            Total                                                  800          933,687            100%

          The data collection instruments consisted of predominately closed-ended questions and
          included both the national and State names used for the SHIP in the beneficiaries’ locale.


SHIP: Assistance to Beneficiaries                       6                              OEI-07-00-00580
          The information obtained was encoded into a relational data base for analysis. The estimates
          for the beneficiary survey are weighted in accordance with the sample design. Percentages are
          reported at the 95 percent confidence interval (Appendix B).

          When surveys are used to collect data, the results may be biased if non-respondents differ from
          respondents. We tested for non-respondent bias among sample beneficiaries. The variables
          used for this analysis were age and gender. The results of this analysis showed no statistically
          significant differences between respondents and non-respondents for the two variables tested.

Other Activities

          We attended a national SHIP conference to gain a national perspective on the issues
          confronting the program. We contacted key CMS staff responsible for administering the State
          Health Insurance Assistance Program grants. Further, we conducted personal or telephone
          discussions with key staff from industry and advocacy groups such as the Health Insurance
          Association of America, National Association of Insurance Commissioners, AARP, Center for
          Medicare Advocacy, National Senior Citizen Law Center, and the United Seniors Health
          Cooperative. We also reviewed ICA legislation, grant requirements for SHIP grantees,
          Medigap insurance legislation, various regulations, and the previous work conducted by the
          Office of Inspector General, General Accounting Office, and others.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




SHIP: Assistance to Beneficiaries                    7                               OEI-07-00-00580
                                         FINDINGS

          The SHIPs fulfill a valuable role by providing Medicare beneficiaries personal assistance with
          the selection of Medicare and Medigap Insurance coverage. Further, utilizing other revenue
          sources, some SHIPs have expanded their role to provide comprehensive “one-stop shop”
          informational, counseling, and referral services to other local, State, and Federal programs,
          such as Medicaid, housing assistance, veterans coverage and benefits, utility assistance, and
          property tax abatement.

          The SHIPs in our survey are located either in the Department of Aging (five States), or the
          Department of Insurance (two States). Regardless of their agency location, SHIPs have
          fostered strong working relationships with social service agencies, community health centers,
          and other non-governmental agencies in their community to enrich the delivery of service to
          beneficiaries. This interagency coordination allows SHIPs the flexibility to share information
          and resource materials freely.

          The SHIPs are uniquely positioned to provide personal locally-oriented counseling and
          assistance services with trained counselors who often have similar backgrounds, cultures, and
          experiences as the beneficiaries they serve. The SHIPs are part of CMS’ comprehensive
          information and counseling services, which include publications, the Internet, and national toll-
          free number counselors. These services are designed to meet the diverse needs of Medicare
          beneficiaries and their families. This is especially important during periods of MCO non-
          renewals when beneficiaries and families are faced with making important and complex health
          care choices in a short time period.

Beneficiaries in the Sample States Sought Assistance in
Greater Numbers During Periods of MCO Non-renewals

          Generally, the sampled SHIPs experienced increased telephone call volumes during the fall of
          CY 2000 after beneficiaries received the notices of the MCO non-renewals. Ohio, Oregon,
          and Pennsylvania could only provide State-wide call volumes, while Arizona, New York, and
          Texas furnished this information for the sample counties. Florida could not provide this
          information, as they maintain only semi-annual reports of State-wide information.

          Data from three sampled locations (AZ, PA, and TX) showed calls dramatically increased
          during the fall of CY 2000, corresponding to the period when beneficiaries received the notices
          of the MCO non-renewals. Two of the sampled locations (NY and OH) showed that calls also
          increased, although less sharply, during this same period. While Oregon’s data showed
          virtually no increase, the SHIP Director informed us they were moving to a new telephone
          system, which may have impacted the completeness and accuracy of this information.




SHIP: Assistance to Beneficiaries                      8                               OEI-07-00-00580
          The increase in workload is further supported by SHIP directors and counselors. The seven

          directors reported increases in workload during the CY 2000 MCO non-renewal period. 

          One-half of the directors believe that the increased activity adversely affected the SHIPs’ ability

          to assist beneficiaries. These directors reported that this increased workload led to delays in

          answering beneficiary telephone calls, responding to mail inquiries, scheduling meetings with

          beneficiaries, holding speaking engagements, and administrative duties.


          Similarly, over 92 percent of the counselors in the seven sample States reported an increase in

          workload during the CY 2000 MCO non-renewal period. Of the 

          78 counselors that responded to our survey, 72 said their workload increased. Most of the

          counselors stated they experienced an increase in the number of telephone calls. Further, one-

          third of the counselors reported this increased workload adversely affected their ability to assist

          beneficiaries, evidenced by delays in answering these calls.


          We obtained CMS’s toll-free number call volume data for CY 2000 (automated telephone

          system and those handled by a customer service representative) because this service also

          provides information and counseling to beneficiaries. Similar to SHIPs, these data showed

          increases in call volume corresponding to the timing of beneficiaries’ receipt of non-renewal

          notices.


          The SHIP directors and counselors described beneficiaries seeking their assistance as angry,

          confused, and overwhelmed when initially contacting SHIP about the non-renewal of their

          managed care plan. They cited beneficiary concerns about the loss of their MCO plan, the

          frustration of facing another decision about choosing appropriate health care coverage, and

          confusion about the number and complexity of available health care choices.


The SHIPs Target Their Program to Meet the Needs of the
Local Community

          The SHIP directors and counselors believe they must provide information and referral services
          to other local, State, and Federal programs in order to meet the needs of their clients, many of
          whom are on limited fixed incomes. The SHIPs are now the primary local source for
          comprehensive Medicare information, counseling, and assistance since SSA no longer provides
          this information for Medicare clients.

          The SHIP is an important segment of the CMS’s overall strategy to offer comprehensive
          national and local information and referral services to beneficiaries through a variety of
          complementary sources. This program, largely staffed by retired volunteers, provides wide-
          ranging personal counseling, information, and referral services to meet the local needs of their
          clients. In CY 2000, SHIPs contacted either in person or by telephone approximately 2.8
          million clients9 at a total cost of $18 million (combined basic and supplemental grants)10 or
          $6.43 per contact. By way of comparison, the CMS toll-free number received 3.7 million
          telephone calls (2.3 million answered by staff and



SHIP: Assistance to Beneficiaries                      9                                OEI-07-00-00580
          1.3 million answered by its automated system) at a total cost of $30.7 million or $8.30 per call
          during this same period.11 These two programs complement each other to provide
          comprehensive information and referral services suited to the needs of Medicare beneficiaries.

The SHIPs Use Comprehensive Approaches to Assist Clients

          The SHIP directors and counselors use a variety of initiatives to meet the unique needs of their
          clients. Frequently, this assistance involves programs other than Medicare or Medicaid as
          clients often lack knowledge of Federal, State, and local programs designed to meet their
          needs. One counselor told of the assistance provided to clients with past military service.

                     Many of these individuals are on limited fixed incomes and have difficulty paying
                     for needed medical care. They are often not aware of a Department of
                     Veterans Affairs program which provides health care and prescription drugs for
                     veterans who meet the program’s eligibility requirements.

          Other counselors mentioned assisting clients faced with large monthly prescription drug bills
          who are on fixed incomes and have limited or no insurance coverage. To address these needs,
          many SHIPs provide information on those pharmaceutical companies offering no-cost drug
          programs. The SHIPs also provide referrals to Medicaid, SSA (for Supplemental Security
          Income), and programs for utility assistance, housing assistance, nutrition, property tax
          abatement, and other local services for aged or disabled clients.

          One counselor summarized this approach when he stated,

                     We need to help seniors who need Medigap insurance - to find in their budget
                     the means to buy it. Only by providing information on other ways (to save
                     money), such as utility assistance, can many of our clients find the dollars they
                     need.

“We Use All Available Resources to Reach Medicare Beneficiaries”

          All directors and counselors described various innovative tools they use to ensure they reach all
          eligible individuals. They use meetings and “town hall” question and answer forums to present
          information to large numbers of clients in a short time period. This method of outreach is
          particularly useful during the periods of MCO non-renewals when many beneficiaries are
          seeking information and assistance about their health care options.

          During our visits, we noted one innovative and creative method for sharing information with
          Medicare beneficiaries. The Ohio SHIP used a video tape as a vehicle for standardizing the
          information presented at group meetings. This video, written and produced by their staff,
          explained complex Medicare options using the concept of the television sitcom “Mel’s Diner.”
          Customers at the diner commented about the “new daily menu specials,” which highlighted
          available Medicare and Medigap choices. This


SHIP: Assistance to Beneficiaries                       10                                OEI-07-00-00580
          information was reinforced by providing copies of the menu to the audience during the
          presentation, followed by a question and answer period.

          The directors and counselors described the varying unique needs of the community such as
          cultural differences, language barriers, special needs for the elderly, disabled and infirm, and
          special groups including military retirees and family members. In a further effort to reach
          diverse and special needs clients, SHIPs cited their use of:

                   < interpreters during telephone calls and presentations,
                   < TDD to facilitate telephone counseling for the hearing impaired,
                   < braille and large print publications for the visually impaired,
                   < counselors recruited from other cultures to address the needs of clients,
                   < counseling sites in ethnic neighborhoods and in locations where beneficiaries live or
                     congregate, especially to meet the needs of frail elders (e.g., independent living
                     centers, nutrition sites, kidney dialysis centers, etc.),
                   < CMS and SHIP brochures translated in other language formats (e.g., Spanish,
                     Chinese, Korean),
                   < counselors in remote areas of the State to reach these populations, and
                   < radio and televison talk and news programs.

          Only a small number of beneficiaries whom we surveyed used SHIP services. They were
          satisfied and rated the quality of the services as average or above. Most users stated they were
          able to obtain the information needed to make their health care decisions. The small number
          who did not obtain all needed information raised issues that were beyond the scope of SHIP
          information and referral services.

The SHIP Counselors Believe They Are Prepared to Respond
to Most Beneficiaries’ Concerns, Yet Express Frustration with
the Timeliness of MCO Non-renewal Information
Over One-quarter of the Counselors Have Previous Related Experience

          Overall, 28 percent of the SHIP counselors report having previous professional experience in
          elderly advocacy, insurance, social work, or the medical field. These counselors, most of
          whom are volunteers, apply their previous professional experience and skills towards
          interpreting legal documents, laws and regulations, and governmental policies. Those with
          medical experience are able to interpret medical terminology.

Initial and On-going Training was Helpful

          Seventy-six percent of the SHIP counselors believe the training they received prepared them to
          respond to concerns and questions beneficiaries may have about their health care coverage.
          Directors reported that all counselors are required to attend initial and ongoing training and
          training in managed care organizations’ non-renewals. The types of SHIP counselor training
          most often included topics such as Medicare, Medicaid, Medigap eligibility and coverage, and
          Medicare MCO non-renewals.


SHIP: Assistance to Beneficiaries                      11                               OEI-07-00-00580
Specific Information on MCO Non-renewals is Untimely

          While 83 percent of SHIP counselors received specific information on managed care non-

          renewals, only 67 percent believe the information was provided when it was needed. In

          addition, only 53 percent reported that information was provided prior to the release of the

          initial MCO non-renewal notice to the beneficiaries. Counselors noted that the 

          non-renewal information was provided too late, and the information material did not sufficiently

          cover topics to prepare them for the “on-slaught” of calls from beneficiaries. One of the

          counselors stated that by the time official information was received (August 2000) the “cat was

          out of the bag.” The media had disseminated information about the MCO non-renewals before

          the plans official notification to CMS.


Beneficiaries Are Interested in SHIP Services, Yet Most Were
Unaware of the Program
Beneficiaries are Interested in Receiving SHIP Services

          Because beneficiaries who receive notices of non-renewal of their MCO plans are faced with
          making choices regarding their Medicare coverage, we asked beneficiaries to identify the
          services they would either use or request when confronted with such decisions. Our goal in
          asking these questions was to determine whether SHIPs were providing the services
          beneficiaries are most interested in receiving. While similar services are furnished through the
          1-800-Medicare number and the Internet, only SHIP is able to provide the face-to-face
          personal assistance many beneficiaries need. As shown in Table 4, those services beneficiaries
          identified most frequently correspond to those provided by SHIP. The total of beneficiary
          responses exceeds 100 percent because many selected more than one service.
                                                       Table 4

                                    Assistance Beneficiaries Would Seek from SHIPs

                                                                                   Percentage of
            Most Frequently Identified Service                                     Beneficiaries

            Information about other insurance available to Medicare
            beneficiaries in the State                                                  41%

            Assistance in choosing between traditional Medicare fee-for-
            service and HMO plans                                                       40%


            Comparative information about available Medigap policies
                                                                                        34%


Most Beneficiaries Remain Unaware of SHIP

          Generally, most beneficiaries are unaware of SHIP information and counseling services. Of the
          365 beneficiaries who responded to our survey, which included both the national and State
          names used for the SHIP in the beneficiaries’ locale:




SHIP: Assistance to Beneficiaries                     12                             OEI-07-00-00580
                      < 87 percent stated they were not aware of the program; and
                      < 13 percent stated they knew about the SHIP program (of which 37.5 percent
                        stated they had contacted and used SHIP services).12

          Using aggregated data from national SHIP workload for CY 2000 (Appendix C), we found
          that approximately 2.8 million (7 percent) of Medicare enrollees, family, or care givers
          contacted SHIP. Nationally, there are approximately 40 million Americans enrolled in the
          Medicare program.

Beneficiaries Consult Other Sources to Obtain Needed Information

          Beneficiaries reported using a variety of other sources to obtain health care information, some
          of which may be less reliable or subject to bias:

                   < Forty-two percent listed medical sources such as physicians or managed care plans;

                   < Thirty-seven percent listed family or friends;

                   < Fifteen percent listed Federal government agencies such as Medicare or Social

                     Security; and
                   < Seven percent listed State government agencies such as State Departments of Aging
                     and/or State Departments of Insurance.

Despite CMS Publicizing SHIP Services, Beneficiaries Remain Unaware

          Eighty seven percent of the randomly selected beneficiaries we contacted stated they were

          unaware of the SHIP program despite CMS efforts to publicize these services. The CMS

          recently mailed publications designed to inform beneficiaries about available health care

          services, including SHIPs. These publications include a listing of contacts for SHIP and other

          agencies that can provide assistance and counseling as well as the national 

          1-800-Medicare toll-free number. Further, CMS has an extensive Internet presence with

          detailed information on SHIPs, Medigap, and links to State Departments of Aging, Insurance,

          and other offices. 


Beneficiaries Find Certain Information Sources Particularly Useful

          Based on responses from beneficiaries, CMS is using appropriate information sources to
          publicize program information. Table 5, on the following page, identifies the sources most
          preferred. The total responses listed exceed 100 percent because many beneficiaries
          expressed more than one information source.




SHIP: Assistance to Beneficiaries                     13                              OEI-07-00-00580
                                                          Table 5

                                    Information Sources Beneficiaries Consider Effective

                                                                                   Percentage of
            Information Source                                                     Beneficiaries

            “Medicare & You” handbook                                                      62%

            Annual Medicare letter from CMS                                                45%

            Advertisements in publications such as AARP                                    40%




SHIP: Assistance to Beneficiaries                        14                          OEI-07-00-00580
                                RECOMMENDATIONS

          The CMS has implemented a broad-based initiative, the National Medicare Beneficiary
          Education Program, to educate beneficiaries about the Medicare program. The program’s
          educational sources include the toll-free number, publications, the Internet, forums, advertising,
          and SHIPs, just to name a few. The SHIPs fulfill an important role by economically providing
          personal Medicare counseling services through volunteers, many of whom are also Medicare
          beneficiaries. The CMS educational initiatives complement each other and each serves a role in
          helping to assure beneficiaries can obtain needed information and referrals in the manner that
          best suits their needs.

          The CMS’s own data indicate a significant number of beneficiaries seek individual counseling
          including the localized services SHIPs provide. Historically, such individualized services were
          provided by Social Security field offices, but this is mostly no longer true.

          We, therefore, offer the following recommendations to improve comprehensive beneficiary
          information and assistance services, including those provided by SHIPs.

As Part of CMS’s Beneficiary Education Initiative, Review the
Appropriate Role(s) for Each Information and Referral Source
to Assure Beneficiaries’ Needs Are Being Met
          While CMS is utilizing a variety of sources, including SHIPs, to address the information and
          referral needs of beneficiaries, it is important to reassess the appropriate role(s) of each source
          to assure its effectiveness. Such a process will help ensure that CMS’s information and referral
          sources are comprehensive and adequately prepared and supported to meet the diverse and
          specific interactive needs of Medicare beneficiaries, especially those impacted by the non-
          renewal of MCOs.

Explore Ways to Appropriately Increase Knowledge of SHIPs,
Their Function, and Their Local Telephone Number in CMS
Publications or Through Other Methods

          CMS could consider the following, or other options, to carry out the recommendations

                   <	 Modify existing Publications such as “Medicare & You” and “Guide to Health
                      Insurance for People with Medicare” to relocate the index and descriptions of major
                      beneficiary assistance numbers, including an index to local SHIP numbers, to the
                      beginning of these publications, similar to the protocol used by the telephone
                      companies for emergency numbers. This will help the beneficiary to quickly find
                      needed assistance.




SHIP: Assistance to Beneficiaries                     15                               OEI-07-00-00580
                   <	 Mail an annual reminder notice to beneficiaries about CMS customer services,
                      including the local counseling and assistance services provided by SHIPs. To
                      reinforce this message, the notice could include a low-cost reminder item such as a
                      refrigerator magnet with the 1-800-Medicare Number and the Medicare.gov website
                      to facilitate beneficiaries’ ability to locate needed information and referral services.

                   <	 Publish Medicare information and assistance numbers, including SHIP numbers, in
                      sources that beneficiaries consult, such as AARP publications and the telephone
                      company “Yellow and Blue Pages” under Medicare.

                   <	 Run national public service announcements and paid commercial advertisements on
                      radio and television during periods when Medicare MCOs are withdrawing or
                      reducing their service areas. As part of this advertising campaign, include information
                      on the Medicare toll-free number and the SHIP program.

Coordinate Closely with SHIPs To Ensure Timely
Dissemination of MCO Non-renewal Information
          The CMS should continue to work closely with SHIPs to develop national and local
          informational materials on MCO non-renewals. Essential aspects of such counselor materials
          should include information about

                   <	 plans that are leaving the Medicare program, or those who are reducing their service
                      areas,
                   < revisions to MCO coverages, and
                   < available Medigap policies.

          The CMS should make every effort to ensure that SHIPs are made aware of MCO non-
          renewals prior to information being made available to the general public. The CMS also may
          want to work with SHIPs to ensure that non-renewal information is shared as quickly and as
          efficiently as possible with all counselors.

AGENCY COMMENTS

          In its written response to the report, CMS addressed the three report recommendations as a
          single recommendation. In essence, CMS agreed with the last recommendation but not the first
          two. The CMS believes that exploring the appropriate role for all information and referral
          sources goes beyond the scope of the study. The CMS also expressed concern with our
          recommendation to modify their publications and notices, citing the possibility of inappropriate
          beneficiary contacts to SHIPs.

          The overall effectiveness of SHIPs, in the context of all available information sources, was
          within the scope of our study. We used Medicare beneficiaries experiences with HMO non-
          renewals not to limit the scope of our study, but rather to provide a means to understand how
          the SHIPs work, how beneficiaries make use of all the information


SHIP: Assistance to Beneficiaries                       16                               OEI-07-00-00580
          sources available to them, and how SHIPs assist beneficiaries with making choices regarding
          their Medicare coverage. We clarified this in our methodology section.

          We found that the SHIPs are uniquely positioned to provide local information and referral
          services to diverse groups of Medicare beneficiaries, irrespective of the information needs of
          the beneficiaries. Given that CMS is implementing a broad-based initiative to educate
          beneficiaries about the Medicare program through a variety of sources and given that
          beneficiaries are seeking informational sources when faced with non-renewal of MCOs, we
          believe it is an appropriate time to review the role of the various information and referral
          sources.

          In addition, we continue to recommend modification to notices and publications to prominently
          display SHIP as well as other CMS beneficiary information, since 87 percent of the
          beneficiaries we contacted were not aware of the SHIP program.

          We have made revisions to the report based on CMS’s comments. The full text of their
          comments is contained in Appendix D.




SHIP: Assistance to Beneficiaries                    17                               OEI-07-00-00580
                                               ENDNOTES

1.	   Judith Hibbard, Dr. P.H., Older Consumers’ Skill in Using Comparative Data to Inform Health Plan Choice: A
      Preliminary Assessment, Public Policy Institute #2000-14, dated September 2000.

2.	   Judith Hibbard, Dr. P.H., An Assessment of Medicare Beneficiaries’ Understanding of the Difference Between
      the Traditional Medicare Program and HMOs, Public Policy Institute, AARP # 9805, dated June 1998.

3.    “Social Security Independence and Program Improvements Act of 1994,” (Public Law 103-296).

4.    CMS memorandum, State Health Insurance Assistance Program (SHIP) Funding for FY 2000.

5.	   Center for Medicare and Medicaid Services’ Internet Web site (http://www.hcfa.gov) Fact Sheets, released
      September 2001, June 2000, and July 15, 1999.


6.    Centers for Medicare and Medicaid Services Fact Sheet, September 2001. Note: These figures are preliminary, as
      managed care plans had until October 2, 2001 to notify CMS of their plans to withdraw or reduce their service
      areas in 2002.

7.	   Loss ratio standards are calculated on the basis of incurred claims experienced or incurred health care expenses
      where coverage is provided by a health maintenance organization on a service rather than reimbursement basis
      and earned premiums for the period.


8.    This letter is required by Title 42, Code of Federal Regulations § 422.506(2)(ii).

9.	   To determine the Medicare population who used SHIPs during calendar year 2000, we used CMS’s National
      Performance Report (NPR) column entitled “Total Individual Client Contacts” (Appendix C). For NPR reporting
      period 4/1/00-9/27/00, we used the total SHIP contact figure. However, for reporting periods 9/28/99 - 3/31/00
      and 9/28/00 - 3/31/01, we obtained the 6 month contact figures and averaged each of these to establish the
      approximate 3 month total for the months in CY 2000. The resulting totals were aggregated to obtain an
      approximation of total SHIP contacts for CY 2000 (2,768,079). We then divided these contacts by the total
      number of Medicare beneficiaries (40 million) and determined that approximately 7 percent of the beneficiaries
      contacted SHIPs during CY 2000.

10. CMS, Center for Beneficiary Choices Data, Dated August 1, 2001.

11. CMS, Center for Beneficiary Choices Data, Dated July 26, 2001.

12. This percentage was not weighted due to the small number of respondents per strata.




SHIP: Assistance to Beneficiaries                                 18                                       OEI-07-00-00580
                                                                                                        APPENDIX A


                    Beneficiary Counseling and Assistance Grants

To be eligible for a grant under Public Law 101-508, States must:

A.	 establish or improve upon a health insurance information, counseling, and assistance program that provides
    counseling and assistance to eligible individuals in need of health insurance information;

B.	 establish a system of referral to appropriate Federal or State departments or agencies for assistance with
    problems related to health insurance coverage (including legal problems), as determined by CMS;

C.	 provide for a sufficient number of staff positions (including volunteer positions) necessary to provide the
    services of the health insurance information, counseling, and assistance program;

D.	 provide assurances that staff members (including volunteer staff members) of the health insurance information,
    counseling, and assistance program have no conflict of interest in providing the counseling;

E.    provide for the collection and dissemination of timely and accurate health care information to staff members;

F.    provide for training programs for staff members (including volunteer staff members);

G.	 provide for the coordination of the exchange of health insurance information between the staff of departments
    and agencies of the State government and the staff of the health insurance information, counseling, and
    assistance program;

H.	 make recommendations concerning consumer issues and complaints related to the provision of health care to
    agencies and departments of the State government and the Federal government responsible for providing or
    regulating health insurance;

I.	   establish an outreach program to provide health insurance information and counseling described in
      subparagraph (A) and the referrals described in subparagraph (B) to eligible individuals; and

J.	   demonstrate, to the satisfaction of CMS, an ability to provide counseling and assistance required under this
      Public Law.




SHIP: Assistance to Beneficiaries                               19                                        OEI-07-00-00580
                                                                                                      APPENDIX B


                                Estimates and Confidence Intervals
                                 for Beneficiary Stratified Sample
          The following table summarizes at the 95 percent confidence intervals for the beneficiary responses to our
          survey that are presented in this report.


                                                                                          Weighted                  95%
                                                                                       Error Percentage          Confidence
            Beneficiary Survey Issue                                                                              Interval

                                                Beneficiary Knowledge and Use of SHIP

            Had previous knowledge of SHIP                                                    15%                        +/- 4.6%

            Contacted SHIP                                                                    18%1                          N/A

            Not aware of SHIP                                                                 85%                        +/- 4.6%

                                          Beneficiary Sources of Health Insurance Information

            Medical sources (physician/managed care organization)
                                                                                              42%                        +/- 6.3%

            Family/friends                                                                    37%                        +/- 6.2%

            Federal government (Medicare/Social Security)                                     15%                        +/- 4.6%

            State government (County or State Aging Services Office/State
            Insurance Department)                                                              7%                        +/- 3.4%

                            Beneficiaries Ability to Obtain Information to Make Health Insurance Decisions

            Beneficiaries who were aware of SHIP and were able to obtain
            needed information                                                                92%                        +/- 6.0%

            Beneficiaries who were not aware of SHIP and were able to
            obtain needed information                                                         73%                        +/- 6.0%

                                          Beneficiary Listing of Effective Information Sources

            “Medicare & You” handbook                                                         62%                        +/- 6.2%

            Annual Notice from CMS                                                            45%                        +/- 6.4%

            Advertisement in publications such as AARP                                        40%                        +/- 6.2%
            1
                This number is not weighted




SHIP: Assistance to Beneficiaries                              20                                      OEI-07-00-00580
                                                                APPENDIX C


                              National Performance Report - SHIPs

                             Counseling and Presentation Contacts

                                October 1999 - September 2001





SHIP: Assistance to Beneficiaries             21                 OEI-07-00-00580
                      NPR FOR PERIOD 9/28/99-3/31/00                   NPR FOR PERIOD 4/1/00-9/27/00                         NPR FOR PERIOD 9/28/00-3/31/01
                Contacts    Contacts   Attendees at    Total     Contacts    Contacts   Attendees at    Total     Contacts     Contacts Attendees at   Total
                   in          by      Educational     SHIP         in          by      Educational     SHIP         in           by    Educational SHIP Contacts
State            Person    Telephone      Events      Contacts    Person    Telephone      Events      Contacts    Person     Telephone    Events

Alabama            1,410       5,131          8,026     14,567      1,484       6,182         13,738     21,404      1,512         7,417       11,693          20,622
Alaska               381       2,661          1,558      4,600        411       1,100           700       2,211        411         1,100         700            2,211
Arizona           12,169      15,046          6,790     34,005      1,732       9,233         20,598     31,563      1,902        15,021       14,423          31,346
Arkansas             301       7,675           407       8,383        715       9,073          1,721     11,509        413         6,451        1,275           8,139
California        11,114       8,504         31,347     50,965     10,484       9,863         30,346     50,693     10,534        12,501       33,756          56,791
Colorado           2,006       8,716          9,251     19,973       2520        7450           4210     14,180      2,166         8,804        5,999          16,969
Connecticut        4,452      18,069          6,106     28,627      4,297      19,101          6,322     29,720      4,983        16,069       10,583          31,635
Delaware              89       2,567           325       2,981        115       2,825           295       3,235        193         3,908          20            4,121
D.C.                  72       1,012           645       1,729         64       1,010          1,290      2,364         71         1,382         640            2,093
Florida            4,000       9,715          8,344     22,059      4,364       8,572         15,936     28,872      2,137        11,793        8,983          22,913
Georgia              411       4,133          6,791     11,335        193        2183         302954    305,330        193         2,183      302,954         305,330
Hawaii                 8       1,479           160       1,647         37       1,247         20,470     21,754         66         1,069        6,248           7,383
Idaho              2,551      10,694          6,555     19,800      2,970      13,712          6,902     23,584      7,524        23,099       17,250          47,873
Illinois           9,199      15,040          5,107     29,346      9,706      15,829         26,487     52,022      7,965        17,152        5,065          30,182
Indiana              954       9,131          1,791     11,876        874      16,909         13,359     31,142        874        16,909       13,359          31,142
Iowa               2,214       4,436          1,747      8,397      3,278       4,740          5,691     13,709      2,285         4,469        4,292          11,046
Kansas             1,101       2,948          1,657      5,706      1,725       4,185          1,311      7,221      1,725         4,185        1,311           7,221
Kentucky           3,875       3,044          2,589      9,508      3,294       3,787         10,343     17,424      2,471         3,251        9,930          15,652
Louisiana            320       7,718          2,807     10,845        330       5,618          4,179     10,127        307         4,380        2,437           7,124
Maine              2,666       7,263          2,645     12,574      2,687       7,142          5,401     15,230      1,253         5,374        3,286           9,913
Maryland           2,577      10,387          6,911     19,875      3,322      14,218          12816     30,356      2,813        15,664       11,094          29,571
Massachusetts      5,677      16,091          9,731     31,499      5,295      12,359          2,331     19,985      6,658        13,590       16,341          36,589
Michigan           1,427      10,197          6,028     17,652      2,174       6,321         13,595     22,090      1,698         4,470       14,536          20,704
Minnesota          3,070      14,520          8,464     26,054      2,676      12,790          9,506     24,972      2,791        13,290        6,736          22,817
Mississippi          380       1,256       102,684     104,320        599       2,696       107,295     110,590        949         3,935      111,994         116,878
Missouri             295       3,236          1,406      4,937        114       2,538          4,254      6,906         77         3,215        3,894           7,186
Montana            1,620       1,010          1,337      3,967      3,818       3,049          2,858      9,725      1,144         1,520         236            2,900
Nebraska           3,162         957           988       5,107        751       2,449          1,334      4,534        479         2,338        1,012           3,829
                       NPR FOR PERIOD 9/28/99-3/31/00                    NPR FOR PERIOD 4/1/00-9/27/00                          NPR FOR PERIOD 9/28/00-3/31/01
                 Contacts    Contacts   Attendees at    Total      Contacts    Contacts   Attendees at    Total      Contacts     Contacts Attendees at   Total
                    in          by      Educational     SHIP          in          by      Educational     SHIP          in           by    Educational SHIP Contacts
State             Person    Telephone      Events      Contacts     Person    Telephone      Events      Contacts     Person     Telephone    Events

Nevada             13,480       5,493          1,828     20,801       3,280       5,046           368       8,694       5,470         3,545        1,525           10,540
N. Hampshire          647       4,095          2,700      7,442         834       1,154          1,675      3,663         811         1,958         410             3,179
New Jersey          8,635      36,829          5,185     50,649       8,271      19,560          7,059     34,890       6,799        24,607        6,319           37,725
New Mexico          4,211       3,249          1,441      8,901       4,320       5,237          4,930     14,487       2,772         2,155        1,439            6,366
New York            8,420      16,861         20,315     45,596       7,805      18,384         15,629     41,818       8,268        20,044       17,934           46,246
N. Carolina         2,367      25,999          4,819     33,185       2,058      11,421         14,231     27,710       3,137        13,299        1,918           18,354
N. Dakota             458         488           215       1,161         436         463          1,672      2,571         493           406         165             1,064
Ohio               24,748      20,797       256,446     301,991       3,371      17,719         76,155     97,245       3,432        20,105       15,791           39,328
Oklahoma               63       7,722          2,510     10,295         319       9,450          4,513     14,282          39         8,371         641             9,051
Oregon                756       6,796          1,705      9,257         499       5,188          1,374      7,061         717         4,482         553             5,752
Pennsylvania        4,967      30,281         16,795     52,043       8,764      43,688         38,982     91,434       8,042        29,520       25,190           62,752
Puerto Rico         1,744       1,238          1,836      4,818       1,666       1,062           381       3,109                                                       0
Rhode Island        1,734       2,400          3,893      8,027       1,294       2,283          3,136      6,713       2,001          957         2,001            4,959
S. Carolina            86       1,854           226       2,166          74       1,929          1,751      3,754          43         2,970        2,031            5,044
S. Dakota             620       1,153           339       2,112       1,109       1,377              0      2,486         369          884         2,886            4,139
Tennessee             700      11,184          3,380     15,264         524      12,051          2,007     14,582         637        12,290        2,119           15,046
Texas               2,529      30,330         17,096     49,955       3,112      31,833         28,212     63,157       2,368        38,125       11,456           51,949
Utah                  649       4,113          7,158     11,920         524         986         11,390     12,900         615         2,015        3,582            6,212
Vermont             5,930       8,480          1,717     16,127         241       1,365           262       1,868       5,188        12,916        3,503           21,607
Virginia              963       3,851          4,806      9,620       1,131       4,129          7,424     12,684       1,053         4,739        7,712           13,504
Virgin Islands        112         272           907       1,291         478         525          1,425      2,428         478          525         1,425            2,428
Washington         19,156       3,637          8,719     31,512      16,533      32,818          9,969     59,320      23,455        32,316       14,381           70,152
W. Virginia         3,301       3,245          1,886      8,432       2,416       1,848          1,775      6,039       2,882         3,606        2,704            9,192
Wisconsin              15       4,797           819       5,631         255       5,173          6,114     11,542         331         6,535        3,162           10,028
Wyoming             4,081         470           319       4,870       3,788         295           295       4,378       5,644          425         1,926            7,995
Total             187,873     438,270       609,257    1,220,833    143,131     441,165       886,971    1,471,267    150,638       471,334      750,820         1,372,792
                                                       APPENDIX D


                                    Agency Comments





SHIP: Assistance to Beneficiaries          24           OEI-07-00-00580
            DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid Services


                                                                                Administrator
                                                                                       Washington, DC 20201


            DATE:                    DEC 17 2001

            TO:	                    Janet Rehnquist
                                    Inspector General

            FROM:	                  Thomas A. Scully
                                    Administrator

            SUBJECT:                Office of Inspector General (OIG) Draft Report: State Health Insurance
                                    Assistance Program: Assistance to Beneficiaries Affected by Medicare
                                    Managed Care Withdrawals (OEI-07-00-00580)

            Thank you for the opportunity to comment on the above-referenced report. In general,
            the report adequately describes the unique contribution State Health Insurance Assistance
            Programs (SHIP) provide and how they fit within the Centers for Medicare & Medicaid
            Service's (CMS) communication program. We appreciate OIG's suggestions and plan to
            improve access to non-renewal information in a fashion that will better assist SHIPs in fulfilling
            their mission.

            However, there are sections of the report that could benefit from the inclusion of
            additional information. Up until page 12, the report is consistent and easy to follow. At
            that point, there appears to be a change in the findings presented, moving towards
            beneficiary assistance in general. For example, in the section titled "Beneficiaries are
            Interested in Receiving SHIP Services," the first sentence refers to "decisions about their
            Medicare coverage." This appears to be a departure from the focus on "assistance
            required for dealing with Medicare managed care plan withdrawals." It is unclear
            whether this approach reflects answers to questions that were not specific to the topic, or
            whether there was an attempt to generalize the findings. This issue needs to be clarified,
            and perhaps the text needs to be revised to stay on topic or to explain why there is a shift
            in focus at this point in the report.

            We thank OIG for its efforts in this inspection and look forward to working with OIG in
            the future. With regard to the specific OIG recommendation, our comments are as
            follows:




SHIP: Assistance to Beneficiaries                            25                                 OEI-07-00-00580
-2 



OIG Recommendation

CMS should review the appropriate role(s) for each information and referral source to assure

beneficiaries' needs are being met; modify their publications and notices to emphasize the

availability of local counseling services; and, continue to coordinate 

closely with SHIPs to ensure the timely dissemination of managed care plan withdrawal

information. 


CMS Response
We agree with OIG and plan to improve access to non-renewal information in a fashion that
helps SHIPs fulfill their mission. However, as we have mentioned above, we believe OIG has
gone beyond the scope of this study to delve into a full range of CMS beneficiary education
activities not necessarily relating to SHIP and managed care plan non-renewals. Regarding the
second part of the recommendation to modify publications, we suggest it should be revised to
state "Explore ways to appropriately increase knowledge of SHIPs, their function, and their
local phone number in CMS publications." The CMS is concerned that modifying major
publications would result in many inappropriate calls being placed to Medicare agents and
partners. We currently have different types of organizations that provide distinct help to
beneficiaries, and these are listed in the Medicare & You handbook.

Regarding the last part of the recommendation, in the context of Medicare managed care non-

renewals we are not certain that the publications cited are necessarily a critical 

source of information. Timely managed care non-renewal information comes in the final

notification letter, which provides specific information about options that beneficiaries have

when faced with the non-renewal of their managed care organization (MCO). 

Given this, it would be helpful for OIG to offer recommendations on how this notice might be

better used to communicate the availability of SHIP assistance in this specific situation and how

to improve the timeliness and accuracy of information disseminated to SHIP counselors.

